No. 19IN THE

~upreme Qtourt of tbe m,niteb ~tates
FRESNO COUNTY SUPERINTENDENT OF SCHOOLS,

v.
AILEEN RIZO,

Petitioner,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I hereby certify that the Petition
for a Writ of Certiorari in Fresno County Superintendent of Schools v. Rizo, No.
19-__ , complies with the word limitations, as it contains 8,427 words.
I declare under penalty of perjury that the foregoing is true and correct.

Date: March 24, 2020

